No. ____________
IN THE

LEZMOND CHARLES MITCHELL,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit
CERTIFICATE OF SERVICE

I, Celeste Bacchi, a Deputy Federal Public Defender in the Office of the
Federal Public Defender for the Central District of California, who was appointed as
counsel for Petitioner under the Criminal Justice Act, 18 U.S.C. § 3006(A)(b),
hereby certify that on August 13, 2020, a copy of Petitioner’s MOTION FOR
LEAVE TO PROCEED IN FORMA PAUPERIS, PETITION FOR WRIT OF
CERTIORARI, and APPENDIX were sent electronically and mailed postage
prepaid to:

William G. Voit, Assistant U.S. Attorney
Office of the U.S. Attorney
Two Renaissance Square
40 N. Central Avenue, Suite 1800
Phoenix, Arizona 85004-4449
William.Voit@usdoj.gov
All parties required to be served have been served. I declare under penalty of
perjury under the laws of the United States of America that the foregoing is true
and correct.
Executed on August 13, 2020, at Los Angeles, California.

/s/ Celeste Bacchi
CELESTE BACCHI*
Deputy Federal Public Defender
Attorneys for Petitioner
LEZMOND CHARLES MITCHELL
*Counsel of Record

